           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 SOCIAL SECURITY ADMINISTRATION’S
   CONTROLS FOR CONCURRENTLY
   ENTITLED BENEFICIARIES WITH
      REPRESENTATIVE PAYEES

      April 2005   A-05-04-13058




 AUDIT REPORT
                                      Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   April 11, 2005                                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Controls for Concurrently Entitled Beneficiaries
        with Representative Payees (A-05-04-13058)


        OBJECTIVE
        The objective of our audit was to determine if the Social Security Administration (SSA)
        had effective procedures in place to ensure different representative payees for
        concurrently entitled beneficiaries1 were only appointed for a compelling reason.

        BACKGROUND
        SSA pays benefits under Titles II and XVI of the Social Security Act. Under Title II, the
        Old-Age Survivors and Disability Insurance (OASDI) program provides benefits to
        retired and disabled workers, including their dependents and survivors. Under Title XVI,
        the Supplemental Security Income (SSI) program provides benefits to financially needy
        individuals who are aged, blind, or disabled.2

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’
        payments.3 A representative payee may be an individual or an organization. SSA




        1
         Concurrently entitled beneficiaries receive benefits under both Title II and Title XVI of the Social Security
        Act.
        2
            Social Security Act §§ 201 et seq. and 1601 et seq.; 42 U.S.C. §§ 401 et seq. and 1381 et seq.
        3
            Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
Page 2 – The Commissioner

selects representative payees for OASDI and SSI beneficiaries when representative
payments would serve the beneficiary’s interests.4 Representative payees are
responsible for using benefits in the beneficiary’s best interests.5

SSA instructions require its staff to appoint one representative payee for all benefits to
which the beneficiary is entitled unless there is a compelling reason to do otherwise.
The example of a compelling reason outlined in SSA’s instructions state that a child
may live with a custodial grandparent, who receives one check (the smaller check) for
day-to-day needs, but a parent receives the larger check for such things as school
tuition (if applicable), medical costs, clothing, handling financial matters, etc. In the rare
instances where different representative payees are appointed for a beneficiary who is
entitled to more than one benefit, each claims file should be documented with the
reason for naming different representative payees.6

The Social Security Protection Act of 2004 enhances SSA’s oversight of representative
payees.7 Once an appropriate representative payee is selected, it is then incumbent
upon SSA to adequately monitor that individual or organization to ensure the benefits
are being used as intended to aid the beneficiary.8

RESULTS OF REVIEW
We planned to identify the universe of concurrently entitled beneficiaries that had
different representative payees for their Title II and Title XVI benefit payments and
select a sample of the beneficiaries to determine the reason SSA assigned different
representative payees. SSA did not have data readily available for us to identify this
universe, so we attempted to create the universe through the electronic collection of
information on SSA’s Representative Payee System (RPS), Master Beneficiary Record
(MBR) and Supplemental Security Record (SSR). However, we experienced difficulty in
establishing the universe because of inconsistent information recorded in SSA’s RPS,
MBR and SSR.

After extensive data analysis, we identified a universe of 34,004 concurrently entitled
beneficiaries that—based upon nomenclature information recorded on the RPS, MBR,
and SSR—appeared to have different representative payees for their Title II and
Title XVI benefit payments, as of June 2003. Following our review of 300 cases from
this universe, we found that 97 percent of the cases had only one representative payee.
However, because of the difficulties in establishing the universe, we can not draw
4
    20 C.F.R. §§ 404.2001 et seq. and 416.601 et seq.
5
    20 C.F.R. §§ 404.2035(a) and 416.635(a).
6
    SSA, POMS, GN 00502.183 B.4.
7
    Pub. L. No. 108-203 § 102; 42 U.S.C. §§ 405(j) and 1383(a)(2).
8
 Social Security Act §§ 205(j)(3) and 1631(a)(2)(F)(iv); 42 U.S.C. §§ 405(j)(3) and 1383(a)(2)(F)(iv); see
also POMS GN 00501.015B.1 and GN 00602.001.B.1.
Page 3 – The Commissioner

overall conclusions from this universe of cases about the effectiveness of SSA’s
procedures to ensure different representative payees for concurrently entitled
beneficiaries were appointed only for a compelling reason. However, our sample cases
identified conditions which suggest opportunities to improve SSA’s compliance with its
policy to document compelling reasons when more than one representative payee is
appointed.

Opportunities to Improve Compliance in Documenting a Compelling Reason

Our review of 300 sample cases—from a universe of 34,004 concurrently entitled
beneficiaries that we were able to develop through our data analysis of representative
payee and beneficiary data—showed that SSA appointed one representative payee for
97 percent of the concurrent beneficiaries’ Title II and Title XVI benefit payments.9
However, SSA appointed more than one representative payee for the remaining
3 percent of the cases and the Agency did not document a compelling reason for doing
this. Specifically, our review of the 300 sample cases found that:

    •   In 290 cases, SSA appointed one representative payee for the beneficiaries’
        Title II and Title XVI benefit payments. Initially, these cases appeared to have
        more than one representative payee because of inconsistent information
        documented in SSA’s systems. However, further review of the cases showed
        that one payee was responsible for both the Title II and Title XVI payments for
        each beneficiary. The inconsistent information gave a false indication that the
        beneficiaries had different representative payees for their Title II and Title XVI
        payment benefits. The inconsistent information included:

           ¾ differences in the spelling or the presentation of the representative
             payee’s name and/or address on the Agency’s MBR and SSR, and/or

           ¾ incidents when the representative payee’s identification number was
             missing from the MBR or SSR.

    •   In nine cases, the beneficiary’s mother was representative payee for the Title II
        benefit payment and the beneficiary’s father was representative payee for the
        Title XVI benefit payment, or vice versa. According to SSA’s records, both
        representative payees resided at the same address. We could not identify any
        documentation in SSA’s claims folders for these nine cases that demonstrated a
        compelling reason for appointing one parent to manage one benefit payment and
        another parent to manage the other benefit payment. In fact, in some cases, the
        beneficiary received benefits under Title II or Title XVI for a significant amount of
        time before becoming eligible for benefits under both Titles. For example, in one
        case the beneficiary’s mother became representative payee in July 1995 for the
        Title XVI benefits and the beneficiary’s father became the representative payee

9
 See Appendix B for the scope and methodology of our audit, and Appendix C for the sampling
methodology and results.
Page 4 – The Commissioner

       in December 2002 for the Title II benefits. This example indicates that the
       employee who made the latest representative payee determination may have not
       considered whether the beneficiary was already receiving benefits under Title
       XVI. On the surface, these scenarios may not suggest a problem. However,
       SSA’s current policy does not include exceptions to the documentation
       requirement, even when the two representative payees are relatives and reside
       at the same address.

   •   In one case, the beneficiary’s grandfather was representative payee for the
       Title II benefit payment and the beneficiary’s grandmother was representative
       payee for the Title XVI benefit payment. Both grandparents resided at the same
       address and the Title II and Title XVI benefit payments were sent by paper check
       to this address. As with the nine cases described above, we could not identify
       any documentation demonstrating a compelling reason for appointing different
       payees to handle the Title II and Title XVI benefits.

CONCLUSIONS AND RECOMMENDATIONS
Although our review of cases suggests that in most instances SSA appropriately
assigns representative payees, because of data limitations, we were unable to draw
overall conclusions regarding the effectiveness of SSA’s procedures to ensure different
representative payees for concurrently entitled beneficiaries were only appointed for a
compelling reason. The cases in our sample where concurrently entitled beneficiaries
were assigned more than one representative payee suggest opportunities for SSA to
improve compliance with its documentation requirements. As such, we recommend that
SSA:

1. Review the 10 cases we identified where more than one representative payee was
   appointed and take actions to appoint only one representative payee to each of the
   beneficiaries’ benefit payments when appropriate.

2. Determine whether the policy that allows for different representative payees for
   concurrently entitled beneficiaries is effective and necessary for the proper
   management of benefit payments.

AGENCY COMMENTS
In commenting on the draft report, SSA agreed with our recommendations. See
Appendix D for the full text of SSA’s comments.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
C.F.R.    Code of Federal Regulations
MBR       Master Beneficiary Record
OASDI     Old-Age, Survivors, and Disability Insurance
POMS      Program Operations Manual System
Pub. L.   Public Law
RPS       Representative Payee System
SSA       Social Security Administration
SSI       Supplemental Security Income
SSR       Supplemental Security Record
U.S.C.    United States Code
                                                                                    Appendix B

Scope and Methodology
In conducting our review, we:

•   Reviewed applicable Federal laws and regulations, as well as relevant Social
    Security Administration (SSA) policies and procedures.

•   Obtained a data file of 149,022 concurrently entitled beneficiaries in the SSA
    systems that appeared to have different representative payees for their Title II and
    Title XVI benefit payments as of June 2003. Through electronic analysis, the
    population of 149,022 beneficiaries was reduced by identifying those cases where:
    (1) the spelling of the representative payee names on the Master Beneficiary Record
    (MBR)1 and Supplemental Security Record (SSR)2 were the same or similar and the
    addresses were the same, and (2) the Title II and Title XVI representative payee
    number was missing and/or different but the representative payee name was the
    same. This resulted in a sampling population of 34,004 SSA beneficiaries who
    appeared to have different representative payees for both their Title II and Title XVI
    benefits. From this population, we selected a sample of 300 cases and projected
    our results to the population. See Appendix C for additional information on our
    sampling methodology.

•   Reviewed Title II and Title XVI case folders to determine the reasons SSA appointed
    different payees, when appropriate.

•   Discussed with SSA Chicago Regional Office SSA’s policy for concurrently entitled
    beneficiaries with representative payees.

We conducted field work at the Office of Audit in Chicago, Illinois from May 2004
through June 2004. We experienced difficulty in establishing the universe because of
inconsistent information recorded in SSA’s Representative Payee System, MBR and
SSR. Accordingly, the data extract we obtained was not sufficiently reliable to meet our
audit objective and we were unable to draw overall conclusions based on the data. The
entity reviewed was under the Deputy Commissioner for Disability and Income Security
Programs. We conducted our audit in accordance with generally accepted government
auditing standards.



1
  The MBR is the system used to record all Social Security beneficiaries who are or were entitled to
receive Retirement and Survivors Insurance or Disability Insurance benefits (SSA, POMS,
DG 05010.090).
2
 The SSR is the system used to record personal, income and resource information gathered to determine
Supplemental Security Income eligibility and payment amounts (SSA, POMS, DG 05010.103).
                                                                                      Appendix C

Sampling Methodology and Results
To achieve our objective, we planned to identify the universe of concurrently entitled
beneficiaries1 that, as of June 2003, had different representative payees for their Title II
and Title XVI benefit payments and select a sample of the beneficiaries to determine the
reason the Social Security Administration (SSA) assigned different representative
payees. However, we found that SSA did not have data readily available that would
allow our identification of this universe.

Since SSA did not have data available for us to identify the universe of concurrently
entitled beneficiaries that had different representative payees for their Title II and
Title XVI benefit payments, we attempted to create the universe through the electronic
collection of information on SSA’s Representative Payee System (RPS), Master
Beneficiary Record (MBR) and Supplemental Security Record (SSR). This resulted in a
universe of 149,022 concurrently entitled beneficiaries that appeared to have different
representative payees for their Title II and Title XVI benefit payments.

After extensive data analysis, we reduced the 149,022 records to 34,004 concurrently
entitled beneficiaries that—based upon nomenclature information recorded on the RPS,
MBR, and SSR—appeared to have different representative payees for their Title II and
Title XVI benefit payments, as of June 2003. We eliminated from our universe, the
115,018 beneficiaries in the data file of 149,022 concurrently entitled beneficiaries, that
we were able to confirm had only one representative payee for their Title II and Title XVI
benefit payments.

We were aware that the new universe of 34,004 beneficiaries may still include
concurrently entitled beneficiaries having only one representative payee for their Title II
and Title XVI benefits. However, the only way to further reduce this universe to only
those beneficiaries with different representative payees for their Title II and Title XVI
benefit payments would have been to manually review 34,004 MBRs and 34,004 SSRs.
This would have involved an inordinate amount of audit resources. Accordingly, we
sampled 300 from the population of 34,004 beneficiaries.

As noted in the results section of this report, further analysis of a sample of
300 beneficiaries out of the 34,004 showed 97 percent of the records that initially
appeared to have different payees for a beneficiary’s Title II and Title XVI payments,
actually had one payee handling both benefit payments. The reasons that these
beneficiaries appeared in our data file was because the nomenclature information
recorded in SSA’s systems (RPS, MBR and SSR) was inconsistent. For example, the
representative payee number was blank on either the MBR or SSR, the representative

1
 Concurrently entitled beneficiaries receive benefits under both Title II and Title XVI of the Social
Security Act.


                                                     C-1
payee names and/or addresses on the MBR and SSR were spelled differently, and the
representative payee number was missing or different but the representative payee
name was the same.

The table below shows the results of our sample.

                                Population and Sample Size
   Population Size                                                         34,004
   Sample Size                                                                   300
                                    Attribute Appraisal
   Total Sample Results: Number of Beneficiaries with                             10
   Two Representative Payees
   Point Estimate of Beneficiaries with Two                                     1,133
   Representative Payees
       Projection lower limit                                                    621
       Projection upper limit                                                   1,896
                      All projections are at the 90-percent confidence level.




                                               C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM                                                                         34126-24-1255


Date:      March 23, 2005                                                          Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Larry W. Dye         /s/
           Chief of Staff

Subject:   Office of Inspector General (OIG) Draft Report, “Social Security Administration’s Controls for
           Concurrently Entitled Beneficiaries with Representative Payees” (A-05-04-13058)--
           INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments to the recommendations
           are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Candace Skurnik at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“SOCIAL SECURITY ADMINISTRATION’S CONTROLS FOR CONCURRENTLY
ENTITLED BENEFICIARIES WITH REPRESENTATIVE PAYEES” (A-05-04-13058)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of concurrently entitled beneficiaries who have more than one
representative payee.

Recommendation 1

The Social Security Administration (SSA) should review the 10 cases identified where more than
one Representative Payee was appointed and take actions to appoint only one Representative
Payee to each of the beneficiaries’ benefit payments when appropriate.

Comment

We agree. On March 4, 2005, the 10 cases cited were referred to our field offices for review,
and action will be taken to appoint one payee for both title II and title XVI records.

Although the Social Security Act does not specifically require that only one payee be appointed
for beneficiaries entitled to more than one benefit, this practice is consistent with the Agency's
general obligation under the Act to provide oversight and monitoring of Representative Payees.

Recommendation 2

SSA should determine whether the policy that allows for different Representative Payees for
concurrently entitled beneficiaries is effective and necessary for the proper management of
benefit payments.

Comment

We agree. We have decided to make a policy change requiring that one payee be appointed for
all benefits. Since we are charged with appointing the very best payee candidate to serve as
payee, that payee candidate should be the best payee for all benefits paid on behalf of the SSA
beneficiary. SSA recently drafted changes to the Programs Operations Manual System (POMS)
GN 00502.183. We expect the POMS changes to be issued by April 1, 2005.




                                                D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Mark Bailey, Director, Central Audit Division (816) 936-5591

      Teresa Williams, Audit Manager (312) 353-0331

Acknowledgments

In addition to those named above:

      Lorrie Clement, Auditor

      Ken Bennett, IT Specialist

      Brennan Kraje, Statistician

      Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-04-13058.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
